OIG Investigative Reports, Student Aid Scam Results in Three Years' Prison for LA Minister
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Tuesday, October 21, 2003
Student Aid Scam Results in Three Years' Prison for LA Minister
US Attorney's Office - A Los Angeles minister who gave seminars at local African-American churches and instructed teenagers how to cheat the student aid system by understating family income and by falsely claiming to be orphans or wards of the court was sentenced today to 41 months in federal prison.Ozell Clifford Brazil, 53, of Los Angeles (just east of Inglewood), was sentenced by United States District Judge Stephen V. WilsonA federal court jury in February convicted Brazil of seven counts of mail fraud and seven counts of federal student financial assistance fraud. Brazil, through his Los Angeles Community Outreach Program, assisted hundreds of college students and college applicants in filing fraudulent student aid forms with the United States Department of Education (DOE). Students and their families were charged from $75 to $250 to attend Brazil's seminars that he held at the First AME Church, Loyola Marymount University and other locations.In order to receive federal financial aid, students and prospective students must submit a Free Application for Federal Student Aid (FAFSA) to the DOE, which then calculates the student's "expected family contribution" and prepares a Student Aid Report for colleges the student is considering attending.In his scheme, which ran from at least September 1996 until February 2000, Brazil directed students to file FAFSAs that falsely claimed the students were orphans or wards of the court. The fraudulent FAFSAs also concealed the true income and assets of the student's parents.In addition to the instruction he provided in his seminars and during private meetings with students, Brazil wrote letters to college financial aid offices which falsely stated that particular students did not receive any financial support from their parents.The government has identified approximately 400 students who went through Brazil's program. Those individuals received well over $10 million in financial aid. Investigators obtained detailed information from 22 students, who received $716,179 in grants and $382,393 in loans. In addition to the prison sentence, which Brazil will begin serving on November 19, Judge Wilson ordered him to pay $716,179 in restitution.In addition to helping students fraudulently receive grants and loans, Brazil provided "fee waivers" to students that allowed them to take the Scholastic Aptitude Test and to apply to college without paying the normal fees. As a result of this abuse, the College Board revised its nationwide fee waiver program.The students who took advantage of Brazil's fraudulent scheme attended a wide variety of public and private high schools throughout the Los Angeles area. Neither these high schools, nor the schools and churches where Brazil presented his seminars, are suspected of being involved in Brazil's scheme. The students who fraudulently received student aid are now required to repay the money they fraudulently received, although they are not being prosecuted criminally.This case was investigated by the DOE's Office of Inspector General and the United States Postal Inspection Service.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov